No. 20-1751

Ix urn
Supreme @ourt of tbe @nite! $itutes
SUSAN FISCHER, ET AL.,
Petitioners,

v

PHIL MURPHY, GOVERNOR OF NEW JERSEY, ET AL.,
Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
Undersigned counsel for the New Jersey Education Association and Township
of Ocean Education Association, a member of the Bar of this Court, certifies that all
parties required to be served have been served with the BRIEF IN OPPOSITION OF
RESPONDENTS NEW JERSEY EDUCATION ASSOCIATION AND TOWNSHIP
OF OCEAN EDUCATION ASSOCIATION, in that three copies were served on
counsel of record for Petitioner and Respondents, this 27th day of September, 202I,
by overnight mail, postage prepaid addressed as follows:

Jeremy Michael Feigenbaum
(Counsel of Record)

Office

of the New

General
25 Market Street
Trenton, NJ 08611
609.984.3900

William L. Messenger
(Counsel of Record)

Jersey Attorney National Right to Work Legal Defense
Foundation, Inc.
800L Braddock Road, Suite 600
Springfield, VA 22160
703.321.8510

Reuve RavrNnnaN
(Counsel of Record)
Bnnngonr' & Kersnn, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
rravindran@b re dhoff. co m

Counsel for New Jersey Ed,ucation
Association and Township of Ocean
Education Association

